CERTIFICATE OF COMPLIANCE
Case No. 20-601
Caption: Daniel Cameron, Attorney General of
Kentucky v. EMW Women’s Surgical Center,
P.S.C., et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 12,326 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 13, 2021.

Nicole Garcia
Record Press, Inc.

Sworn to before me on
August 13, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

